APPENDIX A
Opinions, Orders, Court Hearings and Objections

App.la

ORDER OF THE COURT OF APPEALS
FOR THE STATE OF NEW YORK
(APRIL 2, 2019)
STATE OF NEW YORK
COURT OF APPEALS
In the Matter of
Will of SYDNEY H. FIELDS,
Deceased,

RICHARD FIELDS.
Appellant,
v.
DIANA PALMERI,
Respondent.
Mo. No. 2019-125
Before: Hon. Janet DlFIORE, Chief Judge, presiding.
Appellant having appealed and moved for leave
to appeal to the Court of Appeals in the above cause;
Upon the papers filed and due deliberation, it is
ORDERED, on the Court’s own motion, that the
appeal, insofar as taken from the September 2018

App.2a

Appellate Division order, is dismissed, without costs,
as untimely (see CPLR 5513[a]); and it is further
ORDERED, that the appeal, insofar as taken from
the December 2018 Appellate Division order, is dis­
missed, without costs, upon the ground that such
order does not finally determine the proceeding within
the meaning of the Constitution; and it is further
ORDERED, that the motion, insofar as it seeks
leave to appeal from the September 2018 Appellate
Division order, is dismissed as untimely (see CPLR
5513 [b]); and it is further
ORDERED, that the motion, insofar as it seeks
leave to appeal from the December 2018 Appellate
Division order, is dismissed upon the ground that
such order does not finally determine the proceeding
within the meaning of the Constitution.
/s/ John P. Asiello
Clerk of the Court

App.3a

ORDER OF THE SUPREME COURT FOR THE
COUNTY OF NEW YORK GRANTING
MOTION TO DISMISS COMPLAINT
(JANUARY 31, 2019)
SUPREME COURT OF THE STATE OF NEW YORK
NEW YORK COUNTY
FIELDS, RICHARD,
vs
PALMERI, DIANA,
Index Number: 101305/2018
Sequence Number: 002
Before: Barbara JAFFE, J.S.C.
Upon the foregoing papers, it is ordered
Defendants’ motion to dismiss the complaint is
granted, as this court has no appellate authority over
surrogate’s court. Plaintiffs remedy is an appeal to
the Appellate Division.
/s/ Barbara Jaffe
J.S.C.
Dated: 1/30/19
1.
2.

Check One: Case Disposed
Check as Appropriate: Motion is Granted

App.4a

ORDER OF THE APPELLATE DIVISION OF THE
SUPREME COURT DISMISSING THE MOTION
TO RESTORE THE APPEAL
(DECEMBER 27, 2018)
SUPREME COURT OF THE STATE OF NEW YORK
FIRST JUDICIAL DEPARTMENT,
COUNTY OF NEW YORK
Probate Proceeding,
Will of SYDNEY H. FIELDS,
Deceased.

RICHARD FIELDS,
Objectant-Appellant,
-againstDIANA PALMERI,
Responden t-Respon den t.
Surrogate’s Court M-5489
File No. 2016-111
Before: Hon. David FRIEDMAN, Justice Presiding,
Barbara R. KAPNICK, Marcy L. KAHN,
Ellen GESMER, Cynthia S. KERN, Justices.
An appeal having been taken by objectant-appellant Richard J. Fields from an order of the Surrogates

App.5a
Court, New York County, entered on or about March
26, 2018,
And an order of this Court having been entered
on September 25, 2018 (M-3860/M-4076), granting
petitioner’s cross motion to dismiss the appeal (M3860) and denying objectant-appellant’s motion to
reverse the decree and to stay the petitioner from
liquidating the estate assets (M-4076),
And objectant-appellant having moved to restore
the appeal,
Now, upon reading and filing the papers with
respect to the motion, and due deliberation having
been had thereon,
It is ordered that the motion is denied.
ENTERED:
/s/ {illegible)
Clerk

App.6a

ORDER OF THE APPELLATE DIVISION OF THE
SUPREME COURT DISMISSING THE APPEAL
(SEPTEMBER 25, 2018)
SUPREME COURT OF THE STATE OF NEW YORK
FIRST JUDICIAL DEPARTMENT,
COUNTY OF NEW YORK
Probate Proceeding,
Will of SYDNEY H. FIELDS,
Deceased.

Surrogate’s Court M-3860, M-4076
File No. 2016-111
Before: Hon. David FRIEDMAN, Justice Presiding,
Barbara R. KAPNICK, Marcy L. KAHN,
Ellen GESMER, Cynthia S. KERN, Justices.
An appeal having been taken by objectant-appellant Richard J. Fields from an order of the Surrogates
Court, New York County, entered on or about March
26, 2018, and said appeal having been perfected,
And appellant Richard J. Fields having moved to
reverse the probate decree, and to stay petitioner from
liquidating the estate assets (M-4076),
And petitioner-respondent having cross-moved to
dismiss the aforesaid appeal or, in the alternative, to
strike certain portions of the appellants appendix
and brief, to adjourn the appeal to the November 2018
Term, and for other relief (M-3860),

App.7a

Now, upon reading and filing the papers with
respect to the motion and cross motion, and due
deliberation having been had thereon,
It is ordered that the cross motion by petitioner
is granted and the appeal is dismissed (M-3860). The
motion by appellant to reverse the probate decree
and stay petitioner from liquidating the estate assets
is denied (M-4076).
ENTERED: September 25, 2018
/s/ {Illegible!
Clerk

App.8a

DECREE OF PROBATE
(JULY 20, 2018)
NEW YORK COUNTY SURROGATE’S COURT
Probate Proceeding,
Will of SYDNEY H. FIELDS,
Deceased.

File No.: 2016-111
Before: Rita MELLA, Judge of the Surrogate’s Court
A Petition for Probate having been filed by Diana
Palmeri (“Petitioner”) dated December 17, 2015 seeking
a Decree admitting the Last Will and Testament of
Sydney H. Fields dated October 6, 2014 to probate
and the issuance of letters testamentary to Petitioner;
and
a Citation having been issued in connection with
such Petition, and jurisdiction having been obtained
over the necessary parties to said proceeding; and
an application having been filed by Diana Palmeri
dated June 6, 2016 seeking the issuance of preliminary
letters testamentary to Petitioner; and
Preliminary letters testamentary having been
issued to Diana Palmeri on July 19, 2016; and
Petitioner having appeared by her attorneys,
Edward R. Curtin. Esq., co-counsel Jules Martin Haas,

App.9a
Esq., and trial counsel Albert V. Messina Jr. Esq., of
Novick & Associates, P.C., and
Richard Fields, having initially appeared by his
counsel Dehai Zhang, Esq., and later by Richard Alan
Chen, Esq., and
Objections to Probate with Jury Demand dated
February 24, 2016 having been filed by Richard Fields,
alleging that the October 6, 2014 Will was not duly
executed, that Sydney H. Fields did not possess the
requisite testamentary capacity to execute the Will,
that Sydney H. Fields did not know or understand the
contents of the Will and that the Will was the product
of fraud, duress and undue influence, and
the parties by their respective counsel having
engaged in SCPA § 1404 examinations and CPLR
Article 31 discovery; and
Petitioner having filed a motion for summary
judgment pursuant to CPLR § 3212 dated November 28,
2017 seeking dismissal of the Objections to Probate
filed by Richard Fields; and
Petitioner having filed an affirmation in support
of motion for summary judgment of Jules Martin
Haas, Esq. dated November 28, 2017, including deposi­
tion transcripts and other documents annexed thereto
as exhibits, the affirmation of Edward R. Curtin,
Esq., dated November 27, 2017, the affidavit of Diana
Palmeri, sworn to on November 28, 2017, the affidavit
of Adrienne Lawler sworn to on September 14, 2016,
that affidavit of Arthur Fishelman sworn to on June
12, 2017, the affidavit of Stuart Michael sworn to on
September 14, 2016, the affidavit of Irving Rothbart
sworn to on September 14, 2016, the affidavit of
William McAllister sworn to on September 30, 2016,

App.lOa
the affidavit of Gloria Madero sworn to on July 12,
2017 and a memorandum of law in support of motion
of Albert V. Messina Jr. dated November 28, 2017;
and
Objectant Richard Fields having submitted an
affirmation with legal citations in opposition to
motion for summary judgment of Richard Alan Chen,
Esq., dated January 22, 2018, with exhibits annexed
thereto, and an affidavit from Richard Fields sworn
to on January 22, 2018; and
Petitioner having submitted a reply affirmation
of Jules Martin Haas, Esq., dated February 23, 2018,
with exhibits annexed thereto; and
the allegations of the parties having been heard,
and oral argument of the motion for summary judg­
ment having been heard before the Court on March
20, 2018, and upon all the pleadings and proceedings
heretofore filed and had herein, and after due delibera­
tion the Court having granted granting Petitioner’s
motion for summary judgment and dismissing the objec­
tions to probate on March 20, 2018, and the Court
having rendered its written decision dated March 26,
2018;
NOW, upon motion of Novick & Associates, P.C.,
as attorneys for Petitioner, it is hereby
ORDERED, ADJUDGED and DECREED, that the
written instrument dated October 6, 2014 offered for
probate as the Last Will and Testament of Sydney H.
Fields herein be and the same is hereby admitted to
probate; and it is further
ORDERED, ADJUDGED and DECREED that
letters testamentary shall issue to Diana Palmeri

App.lla
upon qualification and without the posting of a bond;
and it is further
ORDERED, ADJUDGED and DECREED that pre­
liminary letters testamentary dated July 19, 2016 are
hereby revoked, and it is further
ORDERED, ADJUDGED and DECREED that a
judgment in favor of Petitioner for costs and disburse­
ments has been DENIED in the Courts exercise of dis­
cretion.
Jury
Surrogate Court

App.l2a

DECISION AND ORDER OF THE
SURROGATE’S COURT OF NEW YORK
(MARCH 26, 2018)
SURROGATE’S COURT OF THE STATE OF
NEW YORK, COUNTY OF NEW YORK
In the Matter of the Probate Proceeding,
Will of SYDNEY H. FIELDS,
Deceased.

File No.: 2016-111
Before: Rita MELLA, Judge of the Surrogate’s Court
MELLA, S.:
At the call of the calendar on March 20, 2018,
the court granted proponent’s motion for summary
determination, dismissed the objections, and directed
probate of the October 6, 2014 instrument offered as
the will of decedent Sydney Fields. Objectant is the
child of decedent, and he admits that he did not have
a relationship with decedent and that he never saw
his father for the last 19 years of his life. Moreover,
objectant admits that, over the years, he sent his
father correspondence and photographs that were
harassing or threatening.!
1 Objectant stated in opposition to this motion: “I wrote and
sent harassing letters and photos to my father, and also to my
half-brother.. . [who did not appear in this proceeding], and
Orders of Protection were issued against me and criminal

App.l3a

Decedent explicitly disinherited objectant in the
instrument offered for probate,2 which, instead,
benefits members of the family of decedent’s spouse,
who was not objectant’s mother. Decedent’s spouse
died before him in September of 2014, which lead
decedent to seek to revise his penultimate will—from
2006—that had benefited her, but which also had
disinherited objectant in terms identical to those
used in the 2014 instrument. The attorney-drafter of
decedent’s two prior wills was also the drafter of the
2014 instrument here offered for probate, and he con­
firms that, despite decedent having been in his 90s,
his mental faculties were intact and that it was
decedent alone in a meeting who informed the attorneydrafter of who he wanted to benefit with his estate
and in what percentages.
On the merits, the attestation clause in the
instrument, the contemporaneous affidavit of the
attesting witnesses, as well as the sworn testimony of
these witnesses and the attorney-drafter, established a
prima facie case for probate (Matter of Schlaeger, 74
AD3d. 405 [1st Dept. 2010]). In response, objectant
failed to demonstrate, through admissible evidence,
the existence of a material question of fact requiring
a trial on any of the objections on which he claims
charges were filed against me. I am not proud I did that”
(Objectant’s Affidavit in Opposition, dated January 22, 2018,
111).
2 Article FIFTH(b) of the instrument states: “Because my son
[objectant] hired a lawyer to sue me for money and because I
had to have him arrested and brought to court for harassment
of me and my wife, Teresa[,] I deliberately make no provision
for him in this Will and it is my intention that he receive no
part of my estate.”

App.l4a
probate should be denied (Zuckerman v. City of New
York, 49 NY2d. 557 [1980]). He objected that decedent
lacked testamentary capacity, that the will was the
product of undue influence, duress, mistake or fraud,
and that it was not duly executed.
As to mental capacity, all the medical records,
the affidavit of the attesting witnesses and their
testimony from the SCPA 1404 examinations, as well
as the affidavits of several neighbors and friends con­
firm the lucidity and mental acuity of decedent both
before and after the will execution, despite his
advanced age and his having some visual impair­
ment. No evidence submitted by objectant raises a
question of whether decedent could hold in his mind
the nature and extent of his assets, the identity of
the natural objects of his bounty, and the con­
sequences of. executing the will, which is the tradi­
tional test for determining testamentary capacity
(Matter of Kumstar, 66 NY2d. 691 [1985]; Matter of
Khazaneh, 15 Misc 3d. 515 [Sur Ct, NY County 2006]).
Regarding undue influence, proponent’s proof
established that this was a natural will, benefiting
members of the family of decedent’s spouse, with
whom decedent was close and whom he considered his
family. In opposition, objectant had to show, through
evidence in admissible form, that the persons alleged
to have unduly influenced decedent to make this will
had the motive and opportunity to do so, together
with some evidence, circumstantial or otherwise,
indicating that undue influence was actually ex­
ercised on decedent (Matter of Greenwald\ 47 AD3d
1036 [3d Dept 2008]). Objectant, however, provided
no evidence that the will’s beneficiaries had the
opportunity to exercise undue influence or that they

App.l5a
did so in light of the testimony of the attorneydrafter, which established that the beneficiaries had
no direct involvement in the preparation or execution
of the will (see Matter of Camac, 300 AD2d 11 [1st
Dept 2002]).
Objectant offered no evidence of duress—a wrong­
ful threat precluding the exercise of free will—
allegedly inflicted on decedent (Matter of Guttenplan,
222 AD2d 255 [1st Dept 1995)), nor any evidence of
mistake (Matter of Seelig, 302 AD2d 721 [3d Dept
2003]). Objectant also failed to provide evidence of a
misrepresentation made to decedent for the purposes
of inducing him to make a will that he would not other­
wise have made, as would be necessary to create a
question of fact as to a fraud claim (Matter ofSchwartz,
154 AD3d 540 [1st Dept 2017]; Matter of Capuano, 93
AD3d 666 [2d Dept 2012]).3 These objections were
thus dismissed.
Finally, as to the will’s execution, the claimed
failure of the attesting witnesses to remember all its
details are insufficient to rebut the presumption of
regularity in the execution of a will (Matter of Collins,
60 NY2d 466 [1983]). When read in its entirety, the
deposition testimony of the two attesting witnesses
supports the conclusion that the signature on the
instrument is decedent’s and that decedent executed
the instrument with full awareness of what he was
doing and in compliance with all statutory require3 Objectant’s opposition papers state that he has not had an
opportunity to depose the concierge at decedent’s building, who
provided an affidavit in support of the motion. However, after
submitting his opposition to the motion, objectant filed a note of
issue and certificate of readiness with the court stating that all
discovery has concluded.

App.l6a
merits (EPTL 3-2.1). Additionally, when the execution was supervised by an attorney and when there is
a contemporaneous affidavit of the attesting witnesses
reciting the facts of due execution, as is the case here,
a presumption of proper execution arises (Matter of
Natale, 158 AD3d. 579 [1st Dept 2018]).4 Here, the
facts that the attesting witnesses could not confirm
whether decedent had his magnifying glass that day
(the attorney-drafter and one of the witnesses testified
that he did) and could not provide a description of the
aide who accompanied decedent to the will execution,
but who appears to have stayed in a separate waiting
area, were insufficient to rebut the presumption
under the circumstances presented (see id).
The fact that decedent had some visual impair­
ment, even to the point of “legal” blindness as objectant
argues, does not change this conclusion because blind
persons may make wills (Matter of McCabe, 75 Misc
35, 36 [Sur Ct, NY County 1911])). Here, the attorneydrafter testified that the dispositive terms of the pro­
posed instrument were provided to him by decedent
himself and that he confirmed those dispositive pro­
visions of the will orally to decedent shortly before
execution. Moreover, the fact that the attorney-drafter
had to mark the signature line at the end of the
instrument with “X’s,” as requested by decedent, but the
attorney-drafter did not mark “X’s” where decedent’s
4 The fact that the attorney supervising the will execution
corrected the date by hand in the text of this affidavit does not
alter this analysis. Even if, for the sake of argument, it did, due
execution of the will was confirmed by the testimony of the
attesting witnesses and the attorney-drafter at their SCP A
1404 examinations, transcripts of which were provided in support
of the motion.

App.l7a
initials on the preceding pages of the will should be,
is not suspicious (see id). The last page of the will
has both the signature line for the testator and signa­
ture lines for the attesting witnesses. Accordingly, the
only inference that can reasonably be drawn from the
fact that the attorney-drafter marked the testator’s
signature line with “X’s” is that the testator wanted
to be sure to execute the document correctly in spite
of his visual impairment.
The remaining evidence on which objectant relies
to support his claim that the will was not duly executed
is the sworn-to “Letter of Opinion” of a claimed
handwriting expert,5 which merely concludes that “a
different person authored the initials of SHF” on the
first page of the will6 offered for probate from the
person who signed the will. This letter does not conclude
that decedent’s signature at the end of the will is a
forgery, or even that it might be {see Matter ofDane,
32 AD3d 1233 [4th Dept 2006]).

5 Movant contests the expertise of the person making the
report, pointing to the fact that Federal courts have rejected
him as an expert in handwriting. Movant cites the following
cases in this regard: Balimunkwe v. Bank ofAm., NA., 2017 US
App. Lexis 19875 (6th Cir., Jan. 17, 2017); U.S. v. Revels, 2012
US Dist. Lexis 65069, at *22 (ED Tenn., May 9, 2012); and
Dracz v. Am. Gen. Life Ins. Co., 426 F.Supp.2d 1373, 1378-379
(MD Ga 2006).
6 The will is three pages long, and only a copy of the first page
of the proffered will is attached to the opinion letter reporting
that the initials on it are not from the person who signed the
instrument at the end. No opinion is offered as to initials on its
second page, and the court considers this opinion letter as
addressing only the initials on the first page of the proffered
will.

App.l8a
Even if the court were to consider this letter an
affidavit of an expert, there is no requirement that a
testator initial the pages of a will for it to be valid
CseeEPTL 3-2.1 [a] [l]). Instead, all that is required in
this regard is that it have been signed “at the end
thereof {id). The opinion letter is not addressed to
the real issue—whether it is decedent’s signature at
the end of the will—a fact that objectant does not
contest with competent evidence (Matter of Herman,
289 AD2d 239, 239-240 [2d Dept 2001] [objectant’s
burden is to provide particulars in order to create
issue of fact on a claim of forgery]; Matter of Taylor,
32 Misc 3d 1277(A), 2011 NY Slip Op 51440(U), at *4
[Sur Ct, Bronx County 2011], citing Matter ofDi Scala,
131 Misc 2d 532, 534 [Sur Ct, Westchester County
1986]; see also Celaj v. Cornell, 144 AD3d 590 [1st
Dept 2016] [expert report on collateral issue does not
require denial of summary judgment]). Thus, this letter
is insufficient in this instance to resist summary dis­
missal of the objection that the will was not duly ex­
ecuted (see Matter of James, 17 AD3d 366 [2d Dept
2005]; see also Kopeloff v. Arctic Cat. Inc., 84 AD3d
890, 891 [2d Dept 2011]; Murphy v. Conner, 84 NY2d
969, 972 [1994]). Finally, objectant’s surmise that, “it
is possible the first two pages of the Will were ex­
changed for other unknown pages” after the will was
executed is mere speculation, insufficient to create
an issue of fact requiring a trial (see Matter of Weltz,
16 AD3d 428 [2d Dept 2005]).
In examining all the evidence, the court deter­
mined that the October 6, 2014 instrument is valid
and genuine and should be admitted to probate
(Collins, 60 NY2d at 473; see SCPA 1408).

App.l9a
Accordingly, the court granted proponent’s motion
for summary judgment, and the objections to probate
were dismissed.
This decision, together with the transcript of the
March 20, 2018 proceedings, constitutes the order of
the court.
Settle probate decree.
/s/ Rita Mella
Judge of the Surrogate’s Court
Dated: March 26, 2018

App.20a

ORDER OF COURT OF APPEALS
FOR THE STATE OF NEW YORK DENYING
MOTION FOR REARGUMENT
(JUNE 27, 2019)
STATE OF NEW YORK
COURT OF APPEALS
In the Matter of
Will of SYDNEY H. FIELDS,
Deceased,
RICHARD FIELDS
Appellant,
v.
DIANA PALMERI,
Respondent.
Mo. No. 2019-435
Before: Hon. Janet DlFIORE, Chief Judge, presiding.
Appellant having moved for reargument in the
above cause;
Upon the papers filed and due deliberation, it is
ORDERED, that the motion is denied.
/s/ John P. Asiello
Clerk of the Court

Additional material
from this filing is
available in the
Clerk's Office.

